Office of Inspector General
Audit Report




Procurement Practices
Under Grant No. X825532-01
Awarded to MBI International


Report Number 2002-2-00008

January 29, 2002
Resource Center                Mid-Atlantic Division,
Conducting the Audit:          Philadelphia, PA



Headquarters Program Offices   Grants Administration Division
Involved:

                               Office of Policy, Economics,
                               and Innovation



Contributors:                  Rich Howard

                               Michael Wall
                  UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                            OFFICE OF INSPECTOR GENERAL
                                MID-ATLANTIC DIVISION
                                     1650 Arch Street
                           Philadelphia, Pennsylvania 19103-2029
                                      (215) 814-5800




                                   January 29, 2002


MEMORANDUM

SUBJECT: Audit Report:
         Procurement Practices Under Grant No. X825532-01
         Awarded to MBI International
         Report Number 2002-2-00008


FROM:        Carl A. Jannetti
             Divisional Inspector General
             Mid-Atlantic Division (3AI00)

TO:          Martha Monell, Director
             Grants Administration Division (3903R)

At the request of the U.S. Environmental Protection Agency’s (EPA’s) Grants
Administration Division, we performed an audit to determine whether contracts
awarded by MBI International under the subject grant were executed in accordance
with Title 40 of the Code of Federal Regulations, Part 30.

This audit report contains findings that describe problems the EPA Office of
Inspector General (OIG) has identified and corrective actions the OIG recommends.
This audit report represents the opinion of the OIG and the findings contained in
this audit report do not necessarily represent the final EPA position. Final
determination on matters in this audit report will be made by EPA managers in
accordance with established EPA audit resolution procedures.

ACTION REQUIRED

In accordance with EPA Order 2750, you are required to provide a final
determination on the costs questioned and the findings contained in this report
within 120 days of the report date. This will assist us in deciding whether to close the
report. Should your position on the questioned costs differ from our
recommendations, we would appreciate the opportunity to discuss the Grants
Administration Division’s position before the determination is issued to MBI
International. Please provide us with a copy of the final determination when it is
issued.

We have no objection to the further release of this report to the public. If you or your
staff have any questions regarding this report, please contact me or Richard Howard
at (215) 814-5800.
                                                Table of Contents


Purpose . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    1


Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       1


Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  2


Prior Audit Coverage . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             3


Results of Review . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          3


Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .              7


MBI Response and OIG Evaluation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7


Exhibit . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

           A: Statement of Incurred and Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . 11


Appendix . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27

           1:     Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
Purpose

    We performed this audit at the request of the EPA Grants Administration
    Division (GAD), which was concerned over the award of a contract by MBI
    International (MBI) to its subsidiary, Grand River Technologies, Inc. (GRT).
    Specifically, GAD asked that we determine whether MBI, the recipient of
    funding under EPA grant X825532-01, had adhered to the procurement
    procedures stipulated in Title 40 of the Code of Federal Regulations (CFR),
    Part 30, as required by the grant agreement.

Background

    MBI is a private, non-profit corporation in Lansing, Michigan, that seeks to
    develop and market technology through processes that are “biobased,” i.e.,
    environmentally friendly and safe. To that end, in April 1997, EPA awarded
    MBI a grant that as of May 1999 amounted to $6 million. MBI in turn
    awarded a $250,000 sole source contract to GRT, its for-profit subsidiary, to
    market MBI-developed technology. GRT itself created three for-profit
    companies, as shown in the following flow chart:




    Noting that MBI proposed to award another sole source contract to GRT under
    a new grant, GAD requested information on June 1, 2000, relating to
    compliance with the procurement provisions of 40 CFR Part 30. Specifically,
    MBI was requested to:




                                       1
    ‘   Explain how the two GRT contracts complied with the Codes of Conduct
        described in the Code of Federal Regulations (40 CFR § 30.42);

    ‘   Provide information on the competition process regarding the award of
        the GRT contracts (40 CFR § 30.43); and

    ‘   Provide a cost or price analysis for the two GRT contracts
        (40 CFR § 30.45).

    MBI responded on July 13, 2000, and asserted that: (a) it had not violated the
    Codes of Conduct, because it had disclosed to EPA its relationship with GRT
    in the grant proposal; and (b) no competition was attainable because the
    contracts were for “highly specialized procedures.” MBI did not provide the
    requested cost or price analysis.

    GAD requested the Office of Inspector General (OIG) to review the sole source
    contract award to GRT under EPA grant X825532-01. We expanded this
    review upon learning that: (a) GRT had created three for-profit companies;
    and (b) MBI had awarded 23 contracts under EPA grant X825532-01 and 20
    of those 23 awards were sole source. In the meantime, GAD had imposed
    special conditions upon the new $1.9 million grant to MBI (EPA grant
    X828670-01) to preclude procurement procedure violations.

Scope and Methodology

    EPA awarded $6 million to MBI under grant X825532-01 on April 25, 1997.
    The scope of our work was limited to the award of contracts and consulting
    agreements totaling $1.3 million. We performed our audit in accordance with
    Government Auditing Standards issued by the Comptroller General of the
    United States. This audit included tests of the program records and other
    auditing procedures we considered necessary.

    Our review of MBI’s procurement procedures was limited to assuring
    compliance with the requirements in 40 CFR Part 30, which is the regulatory
    authority governing grant X825532-01. We did not evaluate contract
    administration or contract provisions. Our audit began on September 14,
    2000 and ended on June 15, 2001. To accomplish our objective, we
    interviewed the EPA project officer and various personnel within GAD. We
    also reviewed their files, as well as documents supplied by MBI, including an
    external report on MBI’s purchasing system.




                                       2
     On September 18, 2000, we sent a letter to MBI requesting information on the
     contracts and consulting agreements funded under the grant. MBI’s response
     of October 6, 2000, did not provide all of the requested information. The
     incompleteness of the response generated further questions, which we
     submitted on October 31, 2000. MBI promised to respond to our questions by
     year’s end but did not. Instead, on February 13, 2001, MBI informed us that
     it had engaged the services of a law firm to review its purchasing system. MBI
     submitted the law firm’s report of this review to us on April 11, 2001.

Prior Audit Coverage

     MBI has not been previously audited by the OIG. We are not aware of any
     other government audits of MBI’s procurement system.

Results of Review

     MBI did not have adequate justification to support the award of sole source
     contracts. Also, MBI’s procurement practices did not meet federal
     requirements. As a result, $1,301,365 is not eligible for federal
     reimbursement. Further, there were apparent conflicts of interest between
     MBI, its subsidiary (GRT), and companies created by GRT.

     Inadequate Sole Source Justifications

     In its October 6, 2000 response, MBI provided us with justifications for 23
     contracts, 20 of which were for sole source procurements. Although MBI’s Vice
     President of Operations had signed these documents, none of them were dated.
     Moreover, none of these documents actually justified any sole source
     procurements, nor did MBI provide any cost or price analyses as required by
     40 CFR § 30.45. Our subsequent requests for this information yielded no
     response, except to be informed that the Vice President had decided to reduce
     his employment to part time, and that MBI had hired a law firm to review its
     purchasing system. According to this law firm:

     ‘   The purchasing procedures “... can be improved, especially in the areas of
         ‘writing down’ some of the ‘understood’ policies so that as personnel
         change, there is a greater likelihood of seamless compliance.”

     ‘   The contracts can be improved by including provisions that “MBI feels
         were ‘understood’ but are better made an express part of the Agreement.”




                                        3
‘   Contractor and consultant invoices “... should indicate the hours worked,
    the rates charged, and the services performed.”
‘   “MBI has made a cost or price analysis with every subcontract or
    consulting agreement it has entered in support of its EPA work. In
    addition, MBI has prepared a written justification for the award and
    included it in the file. Although the process used by MBI contained in an
    Affidavit of MBI’s Vice President for Operations, [name deleted] explains
    the Company’s effort in this regard in greater detail than the written
    justifications, for future awards the written justifications need to be
    expanded .... From my interview of MBI personnel, most notably [the
    Vice President for Operations], it is clear the Company was going
    through the process in prudently spending assistance funds, but the
    documentation does not always evidence this effort.”

‘   In his affidavit, the Vice President for Operations stated, “It was our
    practice to get competitive bids whenever possible, however, due to the
    unique nature of our work and the object of our grant, major
    subcontracting efforts were done with MBI affiliates. Our intent to
    subcontract such work was included in our proposal to EPA and we
    believed our intent to enter into such agreements was clear in our
    proposal and furthermore that by awarding MBI the grant, EPA was
    consenting to the subcontract awards identified in the proposal.”

    The Vice president also noted that while he knew MBI performed a cost
    or price analysis for every contract “... I now realize we were not as
    diligent in documenting our cost/price analysis as we were in performing
    it, or in retaining the documentation of this work.”

We agree with the attorneys that MBI’s purchasing procedures and contracts
need improvement, but do not necessarily agree with all the other conclusions.
It should be pointed out that, despite repeated requests, MBI never submitted
cost or price analyses. Also, as previously mentioned, the justifications
submitted by MBI were not dated and did not actually justify any sole source
procurement. Finally, EPA’s award of a grant does not constitute approval of
a contract – simply naming a contractor in a proposal does not exempt a
grantee from adhering to Federal procurement regulations.




                                   4
Costs Questioned

We determined that MBI incurred $1,201,857 in ineligible contract costs and
$99,508 in ineligible consultant costs, for a total of $1,301,365 in ineligible
costs.

According to 40 CFR § 30.45, some form of cost or price analysis shall be made
and documented in the procurement files in connection with every
procurement action. Price analysis may be accomplished in various ways,
including the comparison of price quotations submitted, market prices, and
similar indicia, together with discounts. Cost analysis is the review and
evaluation of each element of cost to determine reasonableness, allocability,
and allowability.

According to 40 CFR § 30.46, procurement records and files for purchases in
excess of $100,000 shall include at a minimum: (a) the basis for contractor
selection; (b) the justification for lack of competition when competitive bids or
offers are not obtained; and (c) the basis for award cost or price.

According to 40 CFR § 30.27(b), EPA is to limit its participation in the salary
rate (excluding overhead) paid to individual consultants retained by
recipients to the maximum daily rate for level 4 of the Executive Schedule
unless a greater amount is authorized by law.

We found that MBI generally failed to adhere to the above criteria when
awarding contracts and consulting agreements under EPA grant X825532-01.
The results of our review are presented in detail in Exhibit A.

We were also concerned that six MBI contracts were signed after work began.
For one contract, work had been performed up to a year prior to actual
contract signing. These six contracts were with: GRT; EFX Systems, Inc.;
BioPlastics, Inc.; Auxein Corporation; Jacobs Engineering Group, Inc.; and
Michigan State University. According to MBI:

      This is not a normal practice for MBI but was done in these cases
      to continue project work and preserve project timelines during the
      lengthy process of finalizing agreement language. In these cases,
      work did, in fact, start prior to signature due to the length of time
      necessary to finalize agreement language. However, MBI did not
      disburse and it was made clear we would not disburse for work
      performed until the agreements were signed. Contractors



                                     5
      recognized they were working at their own risk on the assumption
      the agreement would be finalized. In only one instance was an
      invoice paid in error prior to signature. That error was resolved
      and the contract signed within 3 weeks.

Apparent Conflicts of Interest

According to 40 CFR § 30.42, “No employee, officer, or agent shall participate
in the selection, award, or administration of a contract supported by Federal
funds if a real or apparent conflict of interest would be involved. Such a
conflict would arise when the employee, officer, or agent, any member of his or
her immediate family, his or her partner, or an organization which employs or
is about to employ any of the parties indicated herein, has a financial or other
interest in the firm selected for an award.”

MBI, a non-profit company, created GRT, a for-profit subsidiary. GRT then
created Auxein Corporation, BioPlastics Inc., and EFX Systems, Inc., all for-
profit companies. MBI awarded
two sole source contracts to                   Officer       Board Member
GRT, under the EPA grant.
                                   President of MBI               MBI
Likewise, MBI awarded sole                                        GRT
source contracts to the three
companies created by GRT           Vice President of MBI          EFX

(Auxein, BioPlastics, and EFX)     President of GRT &             MBI
to market technology developed       Interim President           Auxein
by MBI. As seen in the chart at      of BioPlastics            BioPlastics

right, apparent conflicts of       Chairman of GRT                MBI
interest existed because officers                                Auxein
of MBI and GRT served on the                                   BioPlastics

Boards of Directors of subsidiary  Director of GRT                MBI
companies.

MBI stated conflicts of interest did not exist because its Board members were
only involved in the approval of contracts that exceed $500,000, and no such
contracts were made to a subsidiary. However, even if the Board members
were not formally involved in a decision, at a minimum, there was the
appearance of a conflict of interest. In addition to having officers intermixed
among the various Boards of Directors, the President of GRT, who was also the
Interim President of BioPlastics, awarded sole source contracts on behalf of
MBI with GRT and BioPlastics on the same day. Moreover, MBI’s Vice
President for Operations, a member of the EFX Board of Directors, also



                                    6
    awarded a sole source contract to EFX. Regardless of the dollar amount, if a
    board member is involved in the approval of a contract and also serves on the
    board of the company receiving the contract, there is an apparent conflict of
    interest.

    Conclusions

    It was inappropriate for board members to award each others’ companies sole
    source contracts, especially without adequate justification and without cost or
    price analyses, as prescribed in 40 CFR § 30.45 and § 30.46. In addition, the
    absence of “arms length” bargaining in the award of contracts by these board
    members constituted an apparent conflict of interest as defined in 40 CFR §
    30.42.

Recommendations

    We recommend that the Director, Grants Administration Division disallow the
    $1,301,365 of ineligible costs incurred under EPA grant X825532-01 at the
    time of our review.


MBI Response and OIG Evaluation

    MBI strongly disagreed with the draft report and maintained that all costs
    questioned by the OIG, other than those noted as ineligible in MBI’s own
    external review report, should have been accepted. MBI also provided some
    additional documentation as part of their response to the draft report. We
    reviewed MBI’s response and our position has not changed.

    We have summarized MBI’s overall comments below, followed by our
    evaluation of the response. MBI’s specific comments to individual notes are
    included with each note, along with our evaluation. Due to volume, we did not
    include MBI’s entire response as an attachment to this report. However, the
    response is available for review upon request.




                                        7
Sole Source Awards to GRT and EFX

MBI Response

MBI disagreed with the OIG’s evaluation of its sole source awards to GRT, Inc.
and EFX Systems, Inc. MBI stated that since these awards were clearly
explained and identified in its grant proposal and part of the approved award,
it was reasonable for MBI to conclude EPA agreed with these sub-awards, and
since EPA had approved MBI’s pricing it likewise had reviewed and approved
the pricing of the proposed awards to GRT and EFX.

OIG Evaluation

We disagree with MBI’s response. Regardless of whether MBI disclosed its
intentions to hire GRT and EFX as contractors in its grant application, EPA’s
award of grant funds to MBI did not constitute approval of its contractors, nor
did the award of funds grant MBI an exception from the procurement
requirements of 40 CFR Part 30.

Cost or Price Analysis

MBI Response

According to MBI, the most significant aspect of the Draft Report concerned
the requirement to conduct and document some form of cost or price analysis
for every procurement action. MBI disagreed with the OIG’s finding that it
did not perform cost or price analyses. Per MBI, Office of Management and
Budget (OMB) Circular A-110 does not prescribe any form or format for a cost
or price analysis other than it be done and documented. MBI claimed the
guidance does not require that this analysis be signed or dated, or that it be
done prior to an award being made. MBI claimed that in every instance it
conducted at least a price analysis and documented its decision, and that the
OIG is demanding a cost or price analysis in a format not required by OMB
Circular A-110 or 40 CFR Part 30.

OIG Evaluation

We disagree with MBI’s response. MBI claimed that in every instance it
conducted at least a price analysis and documented its decision. However,
MBI did not provide this information for its GRT contracts when GAD first
requested it in a letter dated June 1, 2000. Based on MBI’s failure to provide



                                    8
this information, it appeared that MBI did not perform a cost or price analysis
for its contracts with GRT. Moreover, when we asked MBI for the same
information for GRT and MBI’s other contracts in September 2000, MBI
provided the OIG written “justifications” that were identical in format,
contained little information, and did not contain any cost or pricing data.
They also did not contain adequate sole source justifications for those
contracts greater than $100,000. Further, none of the justifications were
dated. Based on the appearance and content of the justifications, and because
MBI did not provide justifications for GRT when GAD requested them, we
question whether the justifications were prepared prior to MBI’s procurements
rather than after we requested them.

In addition, MBI’s response to the draft audit report claims that OMB
Circular A-110 does not specify that a cost or price analysis be done prior to
an award being made. We question MBI’s interpretation of the Circular,
along with MBI’s logic. Performing a cost or price analysis after hiring a
contractor serves no purpose in determining whether the contractor is
providing a fair and reasonable price.

Conflicts of Interest

MBI Response

MBI stated that the OIG makes allegations concerning the appearance of a
conflict of interest between Board members and Officers of MBI, GRT and
other companies with which MBI or GRT have some ownership interest. MBI
claims that 40 CFR § 30.42 does not address a Director or Trustee, either as
an individual or as a Board. MBI also claims that OMB Circular A-110 does
not apply to Directors, yet the audit report attempts to extend these rules to
Directors. Further, MBI states that its Directors are only involved in the
award of contracts when the award exceeds $500,000, and MBI has made no
such awards. MBI claims that every subcontract or consulting agreement was
awarded on its own merit and upon the recommendation of the project
manager.

OIG Evaluation

We disagree with MBI’s response. Members of MBI’s and GRT’s Boards
served on each others’ Boards, as well as the Boards of companies created by
GRT. MBI’s failure to compete these contracts and to perform required cost or
price analyses, along with having officers intermixed among the various



                                    9
companies’ Boards of Directors, gives at a minimum the appearance of
conflicts of interest.

We also disagree with MBI’s interpretations of 40 CFR § 30.42 and OMB
Circular A-110. MBI is attempting to claim exemption from these regulations
since the regulations do not specifically address Directors or Trustees.
However, these regulations do not discuss any specific positions. Rather, they
set the standards for conduct that must be followed by all employees,
including officers and agents of a firm. Therefore, regardless of title, all MBI
employees, officers, and agents are governed by these regulations.




                                    10
                                       Exhibit A
                     Statement of Incurred and Questioned Costs

                  For EPA Agreement X825532-01 Awarded to MBI International
                         for the Period of May 1, 1997 to April 30, 2001



               Cost Category           Incurred             Ineligible         Note

 Contracts                             $1,221,432          $1,201,857           1

 Consultants                              99,508               99,508           2

      Totals                           $1,320,940          $1,301,365




MBI entered into 23 contracts, 20 of which were awarded sole source, under EPA
grant X825532-01. The 23 contracts totaled $2,138,322 of which $1,320,940 was
incurred, according to the invoices submitted by MBI at the time of our review.
We found $1,301,365 of these incurred costs to be ineligible.

Note 1: Contract Costs

(a)       Grand River Technologies, Inc. (GRT)

          MBI awarded two sole source contracts in the amounts of $100,000 and
          $250,000 to GRT, its for-profit subsidiary. MBI and GRT representatives did
          not sign the $100,000 contract until nearly 3 months after the period of
          performance began. GRT billed MBI $95,000 under the first contract and
          $250,000 under the second contract. Although MBI asserted the costs of these
          contracts were competitive, it provided no documentation to support this
          assertion as required by 40 CFR § 30.46. Also, MBI did not submit a cost or
          price analysis as required by 40 CFR § 30.45. Thus, the costs billed were
          ineligible.

                                                           Ineligible Costs   $345,000




                                               11
      MBI Response

      MBI’s initial grant proposal to EPA dated January 1997 included a
      subcontract award to MBI in the amount of $50,000. The subsequent proposal
      of December 1997 included an award of $250,000. During performance, part of
      the work originally subcontracted to EFX was transferred to GRT at a value of
      $50,000. MBI’s proposal clearly identified GRT as MBI’s for-profit subsidiary,
      and highlighted the role GRT would play in performing the grant. As stated in
      MBI’s written price analysis, “Costs were determined to be competitive based
      on a comparison of consulting services provided by management firms. GRT’s
      knowledge of MBI’s technical and physical expertise clearly overrode
      consideration of other management firms.”

      OIG Evaluation

      Our position remains unchanged. Although MBI included its intentions to
      award contracts to GRT in its grant proposals, the award of grant funds does
      not constitute EPA approval of MBI’s contractors or an exception to 40 CFR
      Part 30. The written price analysis referred to in MBI’s response was not
      provided to the OIG. We received only one GRT “justification” that contained
      a one line “cost analysis” that read: “Based upon the services provided, the cost
      was determined to be competitive.”

(b)   Auxein Corporation

      GRT created this for-profit company to market MBI-developed technology.
      MBI awarded a $50,000 sole source contract for Auxein to conduct field
      demonstrations of natural plant growth primers. According to MBI, only
      $30,000 of the $50,000 was paid. MBI and Auxein representatives did not
      sign this contract until nearly 2 months after the period of performance began.
      Because MBI did not submit a cost or price analysis as required by 40 CFR §
      30.45, the costs were ineligible.

                                                           Ineligible Costs    $30,000

      MBI Response

      MBI provided to the OIG the breakdown of trials, which was used to determine
      the reasonableness of cost and also documented the amounts being cost-
      shared by Auxein (roughly half). Auxein billed at agreed upon “task pricing”
      for particular tests. The justification documented that “based on costs for



                                          12
      other large-scale field tests, the cost of application, labor and supervision were
      competitive.” GRT created this company to further develop, produce and
      commercialize technology developed at MBI. Auxein had the rights to the
      technology being tested.

      OIG Evaluation

      Our position remains unchanged. The breakdown provided by MBI is neither
      a cost nor price analysis – it is a project budget that simply lists MBI’s and
      Auxein’s costs for each test, which equal the cost of the contract. There is no
      support for how the “agreed upon” costs were determined. Regarding Auxein
      possessing the technology, MBI did not provide any detail or support for either
      a market survey of other companies’ technologies or any cost analyses.

(c)   BioPlastics, Inc.

      GRT created this for-profit company to market MBI-developed technology.
      MBI awarded a $99,450 sole source contract for BioPlastics to provide
      proprietary film technology. MBI and BioPlastics representatives did not sign
      the contract until nearly 3 months after the period of performance began. Two
      days later, BioPlastics billed MBI for the entire contract amount, despite the
      fact that 7 months remained on the contract. Because MBI did not submit a
      cost or price analysis as required by 40 CFR § 30.45, the costs were ineligible.

                                                            Ineligible Costs    $99,450

      MBI Response

      The Statement of Work in the subcontract came directly from the grant
      proposal to EPA. The demonstration included in the proposal included seven
      companies. BioPlastics was one of only three companies that were deemed
      acceptable, and the only known domestic producer of yard waste scale bags.
      The OIG was provided the written cost breakdown used to determine
      reasonableness and competitiveness. The written price analysis justification
      documented “Costs were determined to be competitive in the field based upon
      the need for labor, materials, and travel to produce the biodegradable resins
      and then blow them into thin film bags for the demonstration in the collection
      of yard waste and subsequent composting.”




                                           13
      OIG Evaluation

      Our position remains unchanged. The information provided to us by MBI
      mentions nothing about seven companies being included in the demonstration
      or BioPlastics being one of three companies deemed acceptable. The written
      cost breakdown that MBI claims was used to determine reasonableness and
      competitiveness is nothing more than a project budget that does not provide
      any detail as to how MBI determined costs to be competitive. As stated before,
      although MBI included in its grant proposal its intentions to award the
      contract, the award of grant funds does not constitute EPA approval of MBI’s
      contractor or an exception to 40 CFR Part 30.

(d)   EFX Systems, Inc.

      GRT created this for-profit company to market MBI-developed technology.
      MBI awarded a $307,850 sole source contract to EFX to conduct a field
      demonstration for the bioremediation of trichloroethylene. MBI’s Vice
      President of Operations, who was also a member EFX’s Board of Directors,
      awarded the contract to EFX, although neither party signed the contract until
      3 months after the period of performance began. Although MBI asserted that
      EFX was the only firm with the necessary technology, it did not provide
      adequate documentation to justify the sole source assertion as required by 40
      CFR § 30.46. Moreover, MBI did not submit a cost or price analysis as
      required by 40 CFR § 30.45. Thus, the costs were ineligible.

                                                         Ineligible Costs   $307,850

      MBI Response

      The purpose of the subcontract was to demonstrate innovative environmental
      treatment of trichloroethylene as indicated in the proposal in detail. EFX is
      the only known possessor of such technology. The subcontract to EFX was
      clearly stated in the proposal, and numerous references are made to EFX,
      including its capabilities and experience. The OIG was provided the detailed
      written cost breakdown used to determine the reasonableness of cost as well as
      the justification stating that the costs were determined to be reasonable. The
      fact MBI’s Vice President for Operations signed the contract does not mean he
      “awarded” it. The award was processed routinely and recommended by the
      Program Manager.




                                         14
      OIG Evaluation

      Our position remains unchanged. MBI did not provide the results of any
      market surveys or any other type of information to prove that EFX is the only
      possessor of this technology. The detailed cost breakdown MBI is referring to
      is nothing more than a project budget that does not include any information
      as to how MBI determined that costs were reasonable. MBI’s “justification”
      contains a “cost analysis” that merely states, “The costs established were
      determined competitive for the nature of the work performed.” As stated
      before, although MBI included its intentions to award this contract in its
      grant proposal, the award of grant funds does not constitute EPA approval or
      an exception to 40 CFR Part 30.

(e)   Tennessee Valley Authority (TVA)

      MBI awarded a $750,000 contract to the TVA for pilot testing of the
      production of animal feeds. At the time of our review, the Authority had billed
      MBI for $166,428 in contract costs. MBI asserted that it had identified three
      locations for the work but that TVA was the only site able to comply with all of
      the required technical conditions. MBI also asserted that it had negotiated a
      rate equal to TVA’s internal use. However, we considered these costs to be
      ineligible because MBI did not provide any documentation to support these
      assertions or submit a cost or price analysis, as required by 40 CFR § 30.45
      and 30.46.

                                                          Ineligible Costs   $166,428

      MBI Response

      Within the contract there were five tasks that had a high level of uncertainty
      due to the immaturity of the technology. On June 27, 1998 MBI internally
      estimated the costs of those tasks to be $571,837 based on the industry, prior
      knowledge, and input from sites identified. On August 10, 1998, TVA faxed a
      detailed cost estimate to MBI for the tasks to be included under the
      subcontract. This estimate was for $437,134.95 – well below the MBI estimate
      and considered reasonable. Of the entities identified, TVA was the only
      organization with ammonia experience. The other two were in highly
      populated areas and could not handle the necessary ammonia process for the
      technology. A fourth entity provided an estimate in excess of $1 million.




                                         15
      OIG Evaluation

      Our position remains unchanged. MBI did not provide any evidence to
      support that it performed market surveys to determine that the TVA was the
      only organization that possessed the experience necessary for the project.
      MBI’s “cost estimate” is an estimated budget that it states was submitted in its
      proposal. However, the budget consists simply of project totals and does not
      contain a breakdown of the costs, how MBI arrived at the amounts, or how
      MBI determined that the costs were reasonable. Also, MBI did not provide
      any cost information for the three additional entities it claims it identified.

(f)   University of Illinois

      MBI awarded a $20,000 contract to the University of Illinois, asserting that
      the costs were competitive. At the time of our review, the University billed
      MBI for $16,609 in contract costs. These costs were ineligible because MBI
      did not submit a cost or price analysis as required by 40 CFR § 30.45.

                                                           Ineligible Costs   $16,609

      MBI Response

      The subcontract was to evaluate a technology owned by the University for
      possible in-license and development that was believed to represent substantial
      improvement in the ability to kill undesirable/pathogenic microorganisms
      that are often present in food processing systems. The cost for this evaluation
      was typical for a one-student project for one semester at a university and was
      considered reasonable. A detailed budget was submitted by University of
      Illinois and, after review, was included as an attachment to the subcontract.
      The written price analysis concluded that the price quoted was competitive.
      Also, note that this contract is below the small purchase threshold.

      OIG Evaluation

      Our position remains unchanged. Although this contract is below the small
      purchase threshold, MBI is not exempt from performing a cost or price
      analysis and documenting it in its procurement files as required by 40 CFR §
      30.45. MBI’s “justification” contains a “cost analysis” that states, “Based upon
      the work to be completed, the cost was determined to be competitive.” MBI did
      not provide any evidence to show how this determination was made, how the




                                          16
      costs were reasonable, or that the costs were both typical and reasonable for a
      one-student one-semester project.

(g)   Michigan State University

      MBI awarded a $120,000 sole source contract to Michigan State University
      for “the development of synthetic polymer membranes.” However, MBI and
      University officials did not sign this contract until nearly 1 year after the
      period of performance began. Based on invoices provided, the University
      billed MBI $59,319 under this contract. MBI asserted that the costs were
      competitive based upon the scope of work, and that it was able to negotiate a
      favorable internal rate. However, these costs were ineligible because MBI did
      not provide any documentation to support the sole source award or submit a
      cost or price analysis, as required by 40 CFR § 30.45 and 30.46.

                                                           Ineligible Costs   $59,319

      MBI Response

      One of the objectives of the EPA grant to MBI was to “evaluate innovative
      technologies under development by federal labs, universities, and industries
      that can be in-licensed.” There is no additional documentation that can be
      submitted to support the sole source subcontract to the University. The
      University is the owner of the technology being developed and there are no
      other entities that could work on a technology patented by the University.
      The costs budgeted for the contract were again typical of university labor and
      cost structures. However, MBI was billed less overhead than other external
      agencies are billed by the University. The overhead rate was 15 percent. This
      particular work was less as a subcontract to the University than the cost would
      have been if performed at MBI.

      OIG Evaluation

      Our position remains unchanged. MBI claims that the costs were typical of a
      university. However, no evidence was provided to support this statement,
      such as a comparison of several universities’ costs. MBI’s “justification”
      contains a “cost analysis” that states, “The cost was determined to be
      competitive based upon the scope of work.” We do not consider this adequate.




                                          17
(h)   Michigan State University

      MBI awarded a $31,050 sole source contract to Michigan State University for
      “the continued development of Ammonia Fiber Explosion (AFEX) technology
      and required support systems.” However, MBI and University officials did not
      sign the contract until nearly 4 months after the period of performance began.
      At the time of our review, the University billed MBI for $6,025 in contract
      costs. However, these costs were ineligible because MBI did not submit a cost
      or price analysis as required by 40 CFR § 30.45.

                                                           Ineligible Costs    $6,025
      MBI Response

      One of the objectives of the EPA grant to MBI was to “evaluate innovative
      technologies under development by federal labs, universities, and industries
      that can be in-licensed.” (Name Deleted) was one of the inventors of the
      ammonia fiber explosion technology in-licensed from the University. The
      subcontract was provided to continue development of the environmentally
      friendly technology to convert agricultural by-products into nutritional
      animal feed.

      The costs budgeted for the contract were again typical of university labor and
      cost structures. However, MBI was billed less overhead than other external
      agencies are billed by the University. The overhead rate was 15 percent. This
      particular work was less as a subcontract to the University than the cost would
      have been if performed at MBI.

      OIG Evaluation

      Our position remains unchanged. Again, MBI did not provide any
      “justification” or cost or price analysis for this contract.

(i)   Cedarburg Laboratories

      Although MBI did not provide a copy of a contract, based on invoices, it paid
      the contractor $46,500. MBI asserted that it selected this lab over two other
      labs based on Cedarburg’s prior knowledge of the process, availability of
      facilities, and cost. However, these costs were ineligible because MBI did not
      submit a cost or price analysis as required by 40 CFR § 30.45.

                                                          Ineligible Costs    $46,500



                                         18
      MBI Response

      Three companies were considered for the scale up and manufacture of the base
      polymer – Caymen Chemical, Bridge Organics, and Cedarburg Laboratories.
      MBI did not have a lab designated and it would have been cost and time
      prohibitive to try to perform the work internally. Cedarburg Laboratories
      were chosen primarily for their capabilities and established and proven
      practices. As the written price analysis justification documented, the costs
      were determined to be competitive, and Cedarburg was determined to provide
      the best overall value based on cost, development, and production capabilities.

      OIG Evaluation

      Our position remains unchanged. The “justification” wording in MBI’s
      response to the draft report differs from the previous “justification” provided to
      the OIG by MBI. The first “justification” provides a “cost analysis” that states,
      “Following the evaluation of the listed facilities, the cost was determined to be
      competitive.” We do not consider this statement, nor the one made in MBI’s
      response to the draft report, to be either a cost or price analysis.

(j)   U.S. Department of Agriculture, Agricultural Research Service (USDA ARS)

      MBI awarded a $12,870 contract to USDA ARS to evaluate “ammonia fiber
      exploded rice straw as a fiber and energy source for lactating cows.” MBI
      asserted that USDA ARS was best suited to conduct the work, and that the
      cost was one-fourth that of a university. However, these costs were ineligible
      because MBI did not submit a cost or price analysis as required by 40 CFR §
      30.45.

                                                            Ineligible Costs    $12,870

      MBI Response

      Three entities were identified to possibly conduct the feed trial with the feed
      produced by MBI’s technology – University of California at Davis, New York
      Dairy, and USDA ARS. University of California at Davis quoted a cost of
      $55,000, and New York Dairy required more feed to conduct the trial than
      could be produced. USDA ARS quoted a cost of $12,870, which, as documented
      in the written price analysis justification, was one-fourth of a University. Note
      this contract is below the small purchase threshold.




                                          19
      OIG Evaluation

      Our position remains unchanged. MBI claims in its response that it identified
      three entities, and quotes the cost of two and the requirements of a third, but
      does not provide any documentation to support this statement. MBI’s
      “justification” does state in a “cost analysis” that, “The USDA cost estimate is
      roughly one-fourth that of a university,” but this statement alone is not a cost
      analysis. Also, although this contract is below the small purchase threshold,
      MBI is not exempt from performing a cost or price analysis and documenting
      it as required by 40 CFR § 30.45.

(k)   Jacobs Engineering Group, Inc.

      MBI awarded a $202,800 contract for engineering expertise related to the
      further development of fiber extrusion. MBI and Jacobs officials did not sign
      the contract until nearly 1 month after the period of performance began. MBI
      stated that only $83,087 was charged to the EPA grant. According to MBI,
      this firm was the only one with the expertise to conduct the work, and the cost
      was competitive within the range of current rates charged by other
      engineering firms. However, these costs were ineligible because MBI did not
      provide any documentation to support these assertions or submit a cost or
      price analysis, as required by 40 CFR § 30.45 and 30.46.

                                                           Ineligible Costs   $83,087

      MBI Response

      The detailed proposal submitted by Jacobs was used to determine the
      reasonableness of the costs and the level of expertise committed to conducting
      the work. As shown in the included e-mail, there was discussion between MBI
      and Jacobs regarding the levels of cost. According to the written price
      analysis, “The cost was determined to be competitive within the range of
      current hourly (sic) charged by other comprehensive construction engineering
      firms.”

      OIG Evaluation

      Our position remains unchanged. MBI included Jacobs’ proposal as part of its
      response, but did not provide any evidence that a cost or price analysis was
      performed. The e-mail referred to in MBI’s response was not part of the




                                          20
      attachment containing Jacobs’ proposal. MBI’s statement that “the cost was
      determined to be competitive” is neither a cost nor price analysis.

(l)   Auburn University

      MBI paid the University $18,000 for cherry peat meal experiments, asserting
      its unique capability to perform the work at a lower than normal cost.
      However, these costs were ineligible because MBI did not submit a cost or
      price analysis as required by 40 CFR § 30.45.

                                                          Ineligible Costs    $18,000

      MBI Response

      The cost breakdown used in determining whether the costs were reasonable
      was provided to the OIG. The justification in the written price analysis
      documented that, “An analysis of conducting the work as a service provided
      the opportunity to complete the work at a lower than normal cost due to a
      discounted rate for greenhouse and small plot nematicide tests.” An employee
      of MBI analyzed the costs proposed by Auburn. His experience was
      considered more than sufficient for this price analysis. Note this contract is
      below the small purchase threshold.

      OIG Evaluation

      Our position remains unchanged. MBI provided a four-line breakdown of the
      cost of the tests, but did not provide any cost or price analysis to show where
      the costs came from, or if they were reasonable. MBI’s “justification” did not
      contain a cost or price analysis to support how it determined that the method
      it was using was lower than normal cost. Further, MBI did not provide the
      cost analysis it claims was performed. Although this contract is below the
      small purchase threshold, MBI is not exempt from performing a cost or price
      analysis and documenting it as required by 40 CFR § 30.45.

(m)   Sills, Law, Essad, Fiedler, & Charboneau

      MBI awarded a $30,294 sole source contract to this law firm for
      commercialization assistance regarding potential licensing issues. In
      response to our information request, MBI acknowledged that it had charged
      EPA $10,719 for services not related to the grant, and that amount was
      ineligible.



                                         21
                                                           Ineligible Costs   $10,719

      MBI Response

      In responding to the OIG’s inquiry, MBI’s Vice President sought the law firm’s
      invoices from MBI’s President. When the invoices came to MBI, the detailed
      explanation was marked “Attorney-Client Privilege” so they were not
      distributed beyond the President’s office. A review of these invoices revealed
      certain charges ($10,719) that should have gone into MBI’s indirect cost pool
      (costs incurred for the overall benefit of the Company) as opposed to a direct
      charge to the EPA grant. As a result, MBI self disclosed this mischarge to
      EPA.

      OIG Evaluation

      MBI stated it mischarged the $10,719. No further action is needed if MBI
      makes the necessary accounting adjustments and does not charge these costs
      to the assistance agreement.

Note 2: Consultant Costs

(a)   Consultant “A”

      MBI paid $12,937 to conduct an industry evaluation of MBI’s enzyme
      technologies. MBI asserted that it selected this consultant over two others
      based on the ability to deliver and because of cost. However, in response to our
      request for additional information, MBI acknowledged that it had charged
      EPA $6,452 in excess of the allowable daily consulting rate allowed by 40 CFR
      § 30.27 and by the grant, and we determined that amount to be ineligible. In
      addition, the remaining $6,485 was also ineligible because MBI did not submit
      a cost or price analysis, as required by 40 CFR § 30.45.

                                                          Ineligible Costs    $12,937

      MBI Response

      Although we were unable to locate the original proposals from the different
      sources, the following is an excerpt from the February 1, 1999 Specialty
      Enzyme Team Meeting: “(Name Deleted) presented proposals for an enzyme
      market analysis. (Name Deleted), as well as SRI, and (Name Deleted) quotes
      are in the $40,000-$50,000 range and are considered too expensive by



                                         22
management. Two remaining quotes, one from (Name Deleted) ($8,500), and
another from Consultant “A” ($16,000) were discussed. Only Consultant “A’s”
proposal addressed the specific topics requested. (Name Deleted) proposal did
not address the required information. (Name Deleted) said that he had spoken
with (Name Deleted) on several occasions and (Name Deleted) had not
responded in his proposal to our specific requests. After review of (Name
Deleted) proposal, it was believed that he was proposing to supply the same
information contained in the (Name Deleted) report already acquired by MBI.
Therefore, the team decided to recommend that Consultant “A” be used for
this analysis.” The justification documented that, “Based upon the search of
available organizations and individuals with the required expertise,
Consultant “A” was selected based upon a combination of the depth of the
desired report product and cost.”

This award probably should have been written as a subcontract, not a
consulting agreement as evidenced by the other prices quoted. MBI notified
GAD of the error in amount charged to the grant (due to the prior decision to
write this up as a consulting agreement as opposed to a subcontract) in
February 2001 prior to the OIG report. Note this award is below the small
purchase threshold.

OIG Evaluation

MBI states that it was unable to locate the original proposals, and instead
quotes an excerpt from a February 1999 meeting. Regardless of whether the
award was written as a subcontract or consulting agreement, a cost or price
analysis was still required. We do not consider MBI’s “justification” to be
either a cost or a price analysis because it does not support how Consultant
“A” was selected or provide any evidence of the costs reviewed or if they were
reasonable. Although the amount incurred is below the small purchase
threshold, MBI is not exempt from performing a cost or price analysis and
documenting it as required by 40 CFR § 30.45.

Consultant “B”

MBI paid $25,111 to provide technical assistance in the development of
environmentally friendly inks low in hazardous air pollutants. MBI asserted
that this consultant was uniquely qualified as the inventor of the technology,
and that it had determined the hourly rate to be competitive. However, in
response to our request for additional information, MBI acknowledged that it
had charged EPA $2,615 in excess of that allowable by 40 CFR § 30.27, and



                                   23
      we determined that amount to be ineligible. In addition, the remaining
      $22,496 was also ineligible because MBI did not submit a cost or price
      analysis, as required by 40 CFR § 30.45.

                                                           Ineligible Costs     $25,111

      MBI Response

      The inventor of the ink technology whom we were originally working with was
      killed in a car accident. Based upon the recommendation of the team,
      Consultant “B” was brought on due to his extensive experience in formulation
      of novel inks and his work with this product. Consultant “B” served as part of
      the team evaluating this technology and was essential in disproving the
      usefulness of the technology and, therefore, preventing any further
      investment into the technology. MBI notified GAD of the error in amount
      charged to the grant in February 2001 prior to the OIG report. This
      agreement is significantly below the small purchase threshold.

      OIG Evaluation

      MBI did not provide any type of market survey or analysis to show how
      Consultant “B” was “uniquely qualified” to provide the necessary services as
      stated in MBI’s “justification.” MBI states in a “cost analysis” provided in its
      “justification” that “the hourly rate was determined to be competitive,” yet
      provided no evidence to support this statement. Although the amount
      incurred is below the small purchase threshold, MBI is not exempt from
      performing a cost or price analysis and documenting it as required by
      40 CFR § 30.45.


(c)   Additional Consultant Charges We determined the amounts listed in the
      following chart to be ineligible because MBI did not submit cost or price
      analyses for consultants “C” through “I,” as required by 40 CFR § 30.45.




                                          24
                   Consultant                   Charges

                       “C”                       $5,000

                       “D”                       26,978

                       “E”                        3,300

                       “F”                        7,630

                       “G”                         754

                       “H”                       16,798

                        “I”                       1,000

                 Total Ineligible               $61,460




MBI Response

“C” was able to conduct a literature search for less cost than if completed
internally at MBI. The written price analysis justification documented that
the hourly rate - $52.08, $62.50 fully loaded (containing overhead) - was
determined to be competitive. Note this award is significantly below the small
purchase threshold.

“D” was a former Vice President in the area of the technology being developed
for whom a fully loaded hourly rate of $52.08 was by far extremely reasonable.
This consultant has led this project in the development of the technology in
several different platforms. A written justification was prepared, but no
additional documentation was necessary since the rate was so low, and the
total amount significantly below the small purchase threshold.

“E” was used to evaluate, under the objectives of the grant, a material
invented by him for MBI to possibly in-license. This consultant did not charge
MBI any travel costs for his trips from Russia and charged only $37.50 per
hour (fully loaded) to perform the evaluation as directed by MBI. A written
justification was prepared, but no additional documentation was necessary
considering the rate was so low, and the total amount billed significantly below
the small purchase threshold.

“F” was also an inventor of the technology being developed at MBI. She was
used to perform tasks that could not be completed internally. A written
justification was prepared, but no additional documentation was necessary



                                    25
since the rate was so low ($62.50 per hour, fully loaded). The total of the
contract was significantly below the small purchase threshold.

“G” was an original inventor of the technology being examined and was
working at a fully loaded rate of $52.08 per hour. The written justification
concluded this cost was reasonable. The total amount billed, less than $1,000,
is way below the small purchase threshold.

“H” was only charging $25 per hour. In light of his previous experience with
respect to analyzing bioactive compounds this was viewed by all as a bargain.
A written justification was prepared, but no further documentation was
needed. The total amount billed was substantially below the small purchase
threshold.

“I” was brought in to assist in closing mass balances for which MBI was having
difficulty with interferences. This consultant was also part of the Hazardous
Waste Analytical Lab and Michigan State University and was able to answer
the necessary questions in the time frame required for only $62.50 per hour
(fully loaded). Due to the specialized skills needed and the expected
complexity of the work this price was determined to be reasonable as indicated
in the written price analysis. Note the total price is considerably below the
small purchase threshold.

OIG Evaluation

Regarding Consultants “C,” “D,” and “F,” MBI’s “justifications” state that the
hourly rates were determined to be competitive. However, we do not consider
these statements to be either cost or price analyses because MBI did not
provide any evidence to support them.

Regarding Consultants “E,” “G,” “H,” and “I,” MBI’s “justifications” stated that
the hourly rates were determined to be competitive based upon the areas of
required expertise.” However, we again do not consider these statements to be
either cost or price analyses because MBI did not provide any evidence to
support them.

Although the amounts incurred for consultants “C” through “I” are below the
small purchase threshold, MBI is not exempt from performing cost or price
analyses and documenting them as required by 40 CFR § 30.45.




                                    26
                              Appendix 1
                                Distribution




EPA

Assistant Administrator for Administration and Resources Management (3101)
Comptroller (2731A)
Agency Follow-up Official - the Chief Financial Officer (2710A)
Agency Audit Follow-up Coordinator (2724A)
Associate Administrator for Congressional and Intergovernmental
  Relations (1301A)
Associate Administrator for Communications, Education, and Media
  Relations (1701A)
Director, Office of Grants and Debarment (3901R)
Director, Suspension and Debarment Division (3902R)
Audit Follow-up Coordinator, Office of Grants and Debarment (3901R)
Director, Office of Executive Support (1104)
Director, Office of Business and Community Innovation (1808)
Office of Inspector General (2410)


Other

MBI International




                                      27
